App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Appellate Case: No. 18-1411
(D.C. No. 1:17-CV-01737-RBJ)(D. Colo.)
FILED
ALIREZA VAZIRABADI,
Plaintiff - Appellant,
v.

United States Court ofAppeals
Tenth Circuit

August 2, 2019
Elisabeth A. Shumaker
Clerk of Court

DENVER HEALTH AND HOSPITAL
AUTHORITY, as Employer; JEREMY
LEE, in his individual capacity;
ELIZABETH FINGADO, in her individual
capacity; MARK GENKINGER, in his
individual capacity; THEODORE
POKRYWKA, in his individual capacity;
DOES ENTITIES 1 THROUGH 10, whose
true names are unknown; JOHN AND
JANE DOES, 1 through 10,
Defendants - Appellees.
SHL US INC.,
Interested Party - Appellee.
ORDER AND JUDGMENT *
Before LUCERO, MATHESON, and MORITZ, Circuit
Judges.
* After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P. 34(a)(2);
10th Cir. R. 34.1(G). The case is therefore ordered submitted without
oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and
collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 2
Alireza Vazirabadi, appearing pro se,1 appeals from
the district court’s grant of summary judgment to
defendants. Exercising jurisdiction under 28 U.S.C. § 1291,
we affirm.
I
Vazirabadi applied for two positions in the Lean
Department with Denver Health in July 2016. Denver
Health sought candidates with strong project management
skills, familiarity facilitating groups and motivating people
to adapt to new processes, and experience dealing with
interpersonal relationships and conflicts. At the time he
applied for the positions, Vazirabadi had been working as
an Uber driver for nearly three years, had a bachelor’s
degree in industrial engineering, and did not have any
experience in the healthcare field.
Appellant applied for the positions online. The
application form included a request that the applicant list
all fluent languages. Vazirabadi entered “Farsi/Persian.”
Denver Health emailed Vazirabadi an online competency
evaluation. SHL US Inc. (“SHL”) hosted and administered
the test. In connection with the test, SHL asked a series of
demographic questions.2 One such question asked “[a]re
you 40 years of age or older?” Vazirabadi answered by
clicking the button next to the word yes.3

1
Because Vazirabadi appears pro se, we construe his filings liberally,
but do not serve as his advocate. Garrett v. Selby Connor Maddux &
Janer. 425 F.3d 836, 840 (10th Cir. 2005).
2 SHL asserts that the questions were entirely voluntary and enabled
SHL to ensure that its tests did not discriminate against any protected
group.
3 The parties dispute whether Vazirabadi saw an option to click a
button next to the text labeled “[p] refer not to answer.” Our disposition
of this case does not require resolution of the dispute.

App. 3
SHL provided the substantive test results to Denver
Health as a percentile score with a recommendation.
Vazirabadi scored in the fifth percentile for deductive
reasoning and in the twenty-fifth percentile overall; he was
“[n]ot [r]ecommended” for hiring. SHL did not provide
Denver Health with responses to the demographic
questions on a per-applicant basis. Instead, SHL made
them available in batches that contained aggregate
information related to multiple applicants. And only
Denver Health’s director of recruitment, Mark Genkinger,
had access to the batches. He did not review any batch
relating to July 2016 applications in the relevant
timeframe.
Vazirabadi nonetheless claims SHL communicated
his over-forty status to Denver Health via metadata
transmitted with his score report. To support this
allegation, Vazirabadi trumpets what appears to be a
screenshot from a document review tool that shows the text
“'40” next to his last name in two locations. On its
face, the captured image purports to “Show Only Hidden
Text.” Vazirabadi did not authenticate the screenshot,4 and
we cannot discern its origins from the record. The record
does not contain evidence that any of the defendants ever
saw a “'40” designation beside Vazirabadi’s name.
Elizabeth Fingado ran Denver Health’s Lean
Department. Fingado tasked Jeremy Lee with reviewing
112 applications for the two open positions and selecting
candidates. Because neither position required foreign
language skills, Lee did not review responses to the
language-related section of the applications. Lee selected

4 He did make a sworn statement that the screenshot is “true and
correct.” But that naked remark says nothing about the source of the
document shown to be under review in the screenshot, who performed
the review, what program generated the image, etc.

App. 4
Vazirabadi and fifteen other candidates to interview by
telephone for both open positions. A panel of existing
employees interviewed each of the candidates using a
prepared list of questions. The panel members scored each
candidate in several work-related areas. Denver Health
selected the three candidates with the highest scores
related to each open position for in-person interviews.
Vazirabadi was not selected for an in-person interview, and
Denver Health ultimately hired others for the two
positions.
Vazirabadi then sued Denver Health and several of its
employees for employment discrimination, alleging they
discriminated against him based on his age and national
origin. The district court granted summary judgment and
dismissed his case with prejudice. Vazirabadi appealed.
II
A
Vazirabadi appeals the district court’s decision not to
recuse from this case. He filed a motion seeking recusal of
the district court judge in accordance with 28 U.S.C. §§ 144
and 455(a). Section 144 provides that if a judge has a
“personal bias or prejudice” for or against one of the
parties, the judge should be recused. Under § 144, the court
strictly construes the affidavits filed in support of recusal
against the affiant, and the moving party has a substantial
burden to demonstrate that the judge is not impartial.
Weatherhead v. Globe Int’1, Inc.. 832 F.2d 1226, 1227 (10th
Cir. 1987). Section 455(a) provides that a judge “shall
disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” Under § 455,
the “test is whether a reasonable person, knowing all the
relevant facts, would harbor doubts about the judge’s
impartiality.” Hinman v. Rogers. 831 F.2d 937, 939 (10th
Cir. 1987) (per curiam). “We review the denial of a motion

App. 5
for recusal for an abuse of discretion.” Cauthon v. Rogers.
116 F.3d 1334, 1336 (10th Cir. 1997).
The district court carefully considered each of
Vazirabadi’s arguments, and concluded that the facts did
not show “bias, prejudice, or a basis on which a reasonable
person would question the Court’s impartiality.” We agree.
On appeal, Vazirabadi does not dispute the substance
of the district court’s findings. Instead, he asserts the
district court erred because its explanation omitted an
explicit reference to § 144, citing only § 455(a). But §
455(b)(1) “entirely duplicate^] the grounds of recusal set
forth in § 144 (‘bias or prejudice’).” Liteky v. United States.
510 U.S. 540, 548 (1994). Section 455(a), in turn, “is a ‘catch­
all’ provision that is broader than the specific grounds for
disqualification set forth in § 455(b).” United States v.
Young. 45 F.3d 1405, 1415 (10th Cir. 1995). “Inasmuch as
the grounds for disqualification set out in Section 144
‘personal bias or prejudice either against (a party) or in favor
of any adverse party’ are included in Section 455, we may
consider both sections together.” United States v. Gigax. 605
F.2d 507, 512 (10th Cir. 1979) (quotation and citation
omitted), overruled in part on other grounds by United
States v. Lang. 364 F.3d 1210 (10th Cir. 2004). The district
court therefore did not err by citing only § 455.
B
Vazirabadi next challenges the district court’s
quashing a subpoena he issued to defendants’ expert
witness Forensic Pursuit. In September 2017, defense
counsel retained Forensic Pursuit as a consulting expert in
this action. On March 23, 2018, Vazirabadi contacted
Forensic Pursuit to engage the firm as his expert in this
action. Forensic Pursuit declined, citing its work for
defendants. On April 4, 2018, Vazirabadi issued a
subpoena to Forensic Pursuit seeking production of

App. 6
documents related to Denver Health. Defendants moved to
quash the subpoena under Federal Rule of Civil Procedure
26(b)(4)(D)(ii), and Vazirabadi filed a competing motion to
compel.
Rule 26(b)(4)(D)(ii) permits discovery of a consulting
expert who is not expected to testify at trial only on a
showing of “exceptional circumstances under which it is
impracticable for the party to obtain facts or opinions on
the same subject by other means.” The district court ruled
in favor of defendants, finding that they hired Forensic
Pursuit as a consulting expert and Vazirabadi did not
make the necessary showing of exceptional circumstances.
“We review pretrial discovery rulings for abuse of
discretion. A trial court abuses its discretion when it issues
a ruling that is arbitrary, capricious, whimsical, or
manifestly unreasonable.” King v. PA Consulting Grp..
Inc.. 485 F.3d 577, 590 (10th Cir. 2007) (quotation and
citation omitted).
On appeal, Vazirabadi argues that there was
insufficient evidentiary support for the conclusion that
defense counsel retained Forensic Pursuit on defendants’
behalf. This evidence included representations of defense
counsel and an affidavit submitted by Forensic Pursuit’s
CEO, Robert Keslo, in which Keslo states that “[o]n
September 19, 2017, a representative of [defense counsel]
contacted Forensic Pursuit and asked the firm to perform
consulting services on behalf of the [defendants in the
present case.”

App. 7
Vazirabadi’s attacks on the evidence do not hold water.5 We
therefore conclude that the district court did not abuse its
discretion by quashing the subpoena issued to Forensic
Pursuit.
C
Vazirabadi also challenges the district court’s denials
of his two motions to amend his once-amended complaint.
Under its scheduling order, the district court set November
6, 2017, as the deadline for amendment of the pleadings and
June 1, 2018, as the discovery cut-off. On June 7, 2018,
Vazirabadi filed a motion to amend his once-amended
complaint to add three defendants and one cause of action.
The district court found Vazirabadi did not establish good
cause for amending his complaint, and it denied the motion.
On August 7, 2018, Vazirabadi filed a second motion to
amend his complaint. The district court applied Rule
15(a)(2) and denied this motion because the proposed
amendment would be futile and would result in undue
prejudice to the defendants.
Rule 15(a)(2) provides that after the initial deadline for
amendment has passed, “a party may amend its pleading
only with the opposing party’s written consent or the court’s
leave.” Id. “The court should freely give leave when justice
so requires.” Id. But “[ajfter a scheduling order deadline, a
party seeking leave to amend must demonstrate (1) good
cause for seeking modification under Fed. R. Civ. P. 16(b)(4)
5 Vazirabadi’s argument that Keslo’s supporting affidavit should be
stricken (because it lacks the phrases “true and correct” and “under
penalty of perjury,” and contains trivial alleged inconsistencies) fails
for the reasons discussed infra. His argument that the affidavit is not
based on personal knowledge because it describes actions taken by
another person misapprehends the concept that a person can
competently testify about the actions they have observed another
person take. His remaining arguments deliberately disregard the
affidavit’s clear statement that defense counsel retained Forensic
Pursuit to perform services on defendants’ behalf.

App. 8
and (2) satisfaction of the Rule 15(a) standard.” Gorsuch,
Ltd., B.C. v. Wells Fargo Nat’l Bank Ass’n. 771 F.3d 1230,
1240 (10th Cir. 2014). Rule 16(b)(4), in turn, provides that a
scheduling order “may be modified only for good cause and
with the judge’s consent.” Id. “Rule 16’s good cause
requirement may be satisfied, for example, if a plaintiff
learns new information through discovery or if the
underlying law has changed. If the plaintiff knew of the
underlying conduct but simply failed to raise [applicable]
claims, however, the claims are barred.” Gorsuch. 771 F.3d
at 1240 (citation omitted). “We review for abuse of discretion
a district court’s denial of a motion to amend a complaint
after the scheduling order’s deadline for amendments has
passed.” Birch v. Polaris Indus.. Inc., 812 F.3d 1238, 1247
(10th Cir. 2015).
Vazirabadi’s first motion to amend his once-amended
complaint did not provide any reasoning as to why the
amendment should be allowed. Instead, it contained only
conclusory and irrelevant statements. The district court
thus properly denied the first motion to amend due to his
failure to establish good cause.
Vazirabadi’s second motion to amend articulated
reasons for allowing the amendment, and the district court
evaluated the request under Rule 15(a)(2). District courts
may consider a wide range of factors, including undue
delay, bad faith, dilatory motive, undue prejudice to the
opposing party, and futility. See Min ter v. Prime Equip.
Co.. 451 F.3d 1196, 1204 (10th Cir. 2006). The “most
important [] factor in deciding a motion to amend the
pleadings[] is whether the amendment would prejudice the
nonmoving party.” Id. at 1207. The district court found the
proposed amendment would prejudice defendants. We
agree. The district court did not abuse its discretion in
denying Vazirabadi’s motions to amend.

App. 9
D
Vazirabadi appeals the district court’s reliance on
affidavits provided by defendants supporting their motion
for summary judgment. He claims that because the
affidavits state neither that they are “true and correct” nor
signed “under the penalty of perjury,” the affidavits are
void.
An affidavit is “[a] voluntary declaration of facts
written down and sworn to by a declarant, [usually] before
an officer authorized to administer oaths.” Affidavit,
Black’s Law Dictionary (11th ed. 2019). Each of the
affidavits at issue in this case is styled as an “Affidavit of
[name].” Each of them contains an introductory sentence in
substantially the following form: “I, [name], being of lawful
age and first duly sworn upon oath, depose and state that
I have personal knowledge and information concerning the
following.” And each of them states that it was “subscribed
and sworn” before a notary public. The defendants’
submitted affidavits legally suffice, and the district court
properly relied on them.
Vazirabadi’s argument that an affidavit must contain
the phrases “true and correct” and “under penalty of
perjury” misconstrues 28 U.S.C. § 1746. That statute
authorizes parties to submit unsworn declarations in lieu
of affidavits, provided that the declarations state that they
are “true and correct” and are made “under the penalty of
perjury,” among other things. Id. But § 1746 does not apply
to sworn affidavits. Appellant further claims the district
court should have disregarded Lee’s affidavit because the
notary’s stamp indicated that her commission expires on
January 17, 2020, whereas the notary’s handwritten note
indicated that her commission expired on January 17,
2018—before Lee executed the affidavit on August 28,
2018. But regardless whether the notary’s commission had

App. 10
expired, Lee swore to the affidavit’s contents “upon oath,”
and the district court properly considered it.
Vazirabadi also presents a new argument on appeal
that defendants’ affidavits should have been stricken
because they contradict attached exhibits. We generally
consider arguments not presented to the district court to be
forfeited. See Richison v. Ernest Grp., Inc.. 634 F.3d 1123,
1127-28 (10th Cir. 2011). “[W]e will entertain forfeited
theories on appeal, but we will reverse a district court’s
judgment on the basis of a forfeited theory only if failing to
do so would entrench a plainly erroneous result.” Id. at
1128.
“Contradictions found in a witness’ testimony are not,
in themselves, sufficient to preclude such testimony.”
Ralston v. Smith & Nephew Richards. Inc.. 275 F.3d 965,
973 (10th Cir. 2001). This principle controls in this case, as
the alleged inconsistencies concern trivial issues of fact,
and the support for the supposed contradictions is
speculative. The district court did not commit plain error
in relying on the defendants’ affidavits.
E
Vazirabadi appeals the district court’s grant of
summary judgment to defendants. Summary judgment
should be granted “if the movant shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). “To avoid summary judgment, a party must produce
specific facts showing that there remains a genuine issue
for trial . . . .” Branson v. Price River Coal Co.. 853 F.2d
768, 771-72 (10th Cir. 1988) (quotation omitted). We review
the district court’s summary judgment decision de novo,
viewing the factual record and making reasonable
inferences from it in the light most favorable to the

App. 11
nonmoving party. Bird v. W. Valiev City. 832 F.3d 1188,
1199 (10th Cir. 2016).
Appellant alleges Denver Health violated the Age
Discrimination in Employment Act (“ADEA”), 29 U.S.C. §§
621-634. An employer violates the ADEA if it “fail[s] or
refuse[s] to hire . . . any individual . . . because of such
individual’s age.” § 623(a)(1). “[T]he plaintiff retains the
burden of persuasion to establish that age was the ‘but-for’
cause of the employer’s adverse action.” Gross v. FBL Fin.
Servs.. Inc.. 557 U.S. 167, 177 (2009).
A plaintiff may demonstrate age discrimination in
violation of the ADEA by providing either direct or
circumstantial evidence of discrimination. See Roberts v.
Int’i Bus. Machs. Corn.. 733 F.3d 1306, 1308-09 (10th Cir.
2013). Direct evidence in this context “is evidence from
which the trier of fact may conclude, without inference,
that the employment action was undertaken because of the
employee’s protected status.” Sanders v. Sw. Bell Tel.. L.P..
544 F.3d 1101, 1105 (10th Cir. 2008). If the plaintiff relies
on circumstantial evidence, then we review his claim under
the burden-shifting framework first described in
McDonnell Douglas Corn, v. Green. 411 U.S. 792 (1973).
Roberts, 733 F.3d at 1309.
The attempt to prove age discrimination in this case
rests on an unauthenticated screenshot of a document
review tool that supposedly shows hidden metadata that
flagged Vazirabadi as an over-forty candidate and on an
allegation that SHL transmitted the hidden metadata to
Denver Health with Vazirabadi’s competency test scores.
The district court found that Vazirabadi “failed to put
forward any admissible or even arguably credible evidence
that creates a triable issue of fact as to whether [Denver
Health] knew [] Vazirabadi’s age, much less acted on it.”
We agree.

App. 12
Because Vazirabadi has no direct evidence to support
his age discrimination claim, his case must proceed under
the three-step framework of McDonnell Douglas. Under
that framework, a plaintiff alleging discrimination in a
failure to hire case has the initial burden on summary
judgment of producing evidence sufficient for a reasonable
jury to conclude the plaintiff “applied for an available
position for which she was qualified, but was rejected under
circumstances which give rise to an inference of unlawful
discrimination.” Tex. Dep’t of Cmtv. Affairs v. Burdine, 450
U.S. 248, 253 (1981) (describing McDonnell Douglas
framework).
If the plaintiff makes this initial showing, the burden
shifts to the defendant to articulate a nondiscriminatory
reason for not hiring the plaintiff. Id. If the employer does
so, then the burden shifts back to the plaintiff to produce
sufficient evidence for a reasonable jury to conclude the
defendant’s proffered rationale is a pretext for
discrimination. See id.; Roberts. 733 F.3d at 1309. “Under
our precedents, a plaintiff can establish pretext by showing
the defendant’s proffered non-discriminatory explanations
for its actions are so incoherent, weak, inconsistent, or
contradictory that a rational factfinder could conclude they
are unworthy of belief.” Johnson v. Weld Ctv., 594 F.3d
1202, 1211 (10th Cir. 2010) (alteration and quotation
omitted). ‘Mere conjecture that the employer’s explanation
is a pretext for intentional discrimination is an insufficient
basis for denial of summary judgment.” Bekkem v. Wilkie.
915 F.3d 1258, 1268 (10th Cir. 2019) (quotation omitted).
Assuming without deciding that Vazirabadi satisfied
the initial step in the McDonnell Douglas process, his claim
nevertheless fails. Denver Health provided a legitimate,
nondiscriminatory reason for not hiring Vazirabadi: other
candidates were more qualified and performed better
during the interview process. At the time he applied for

App. 13
employment with Denver Health, Vazirabadi had been
working as an Uber driver for nearly three years, had a
bachelor’s degree in industrial engineering, and did not
have any experience in healthcare. During his interview,
Vazirabadi failed to provide concrete examples that related
his experience to the positions. And the candidates
ultimately hired had significantly more relevant education
and work experience.
Because Denver Health provided a nondiscriminatory
reason for hiring other candidates, the burden shifted back
to Vazirabadi to produce evidence that Denver Health’s
proffered rationale was pretext for age discrimination. He
provided no such evidence, and therefore the district court
properly granted summary judgment in favor of defendants.
Vazirabadi also brought a conspiracy claim under 42
U.S.C. § 1985(3) related to the alleged age discrimination.
“The essential elements of a § 1985(3) claim are: (1) a
conspiracy; (2) to deprive plaintiff of equal protection or
equal privileges and immunities; (3) an act in furtherance of
the conspiracy; and (4) an injury or deprivation resulting
therefrom.” Tilton v. Richardson. 6 F.3d 683, 686 (10th Cir.
1993).
Each of the individual defendants provided evidence
that they (1) did not know Vazirabadi’s age at the time the
relevant hiring decisions were made, (2) did not take his
age into account when making a hiring decision, and (3) did
not otherwise conspire to discriminate against Vazirabadi.
Lee and Fingado submitted evidence that the interview
and selection process provided Vazirabadi with a fair and
equal opportunity to be hired.

App. 14
Vazirabadi has not pointed to any specific facts that
call this evidence into question. His sweeping allegations
that defendants destroyed, forged, or altered documents in
furtherance of their supposed conspiracy lack evidentiary
support. The district court thus properly granted summary
judgment in favor of the defendants on the conspiracy
claim.6
Finally, Vazirabadi brings a claim of national origin
discrimination under 42 U.S.C. § 2000e-2(a)(l). Title VII of
the Civil Rights Act of 1964 makes it an “unlawful
employment practice for an employer ... to fail or refuse to
hire ... any individual... because of such individual’s race,
color, religion, sex, or national origin.” § 2000e-2(a)(l). “To
survive summary judgment on a Title VII claim of
discrimination based on race, color, religion, sex, or
national origin, a plaintiff must present either direct
evidence of discrimination or indirect evidence that
satisfies the burden-shifting framework of McDonnell
Douglas.” Bekkem. 915 F.3d at 1267 (citation omitted).
Appellant does not challenge the district court’s
finding that he “has no direct proof of national origin
discrimination.” We therefore evaluate his claim of national
origin discrimination by applying the McDonnell Douglas
framework. But again, even if we assume Vazirabadi has
established a prima facie case of discrimination, Denver
Health has articulated a nondiscriminatory reason for not
hiring Vazirabadi. Applying McDonnell Douglas, this
shifted the burden back to appellant to prove that Denver
Health’s rationale was pretext for national origin
discrimination. The district court found that Vazirabadi
did not make this showing and we agree.
6 To the extent his § 1985(3) cause of action also asserted an equal
protection claim, we affirm the district court’s grant of summary
judgment on that claim for substantially the same reasons cited by the
district court.

App. 15
F
Vazirabadi’s briefs raise additional claims that he did
not present to the district court. For example, he now
asserts that defendants violated § 2000e-2(a)(2) by asking
for his language fluencies. Similarly, Vazirabadi avers that
defendants ran afoul of the Uniform Guidelines on
Employee Selection Procedures, 29 C.F.R. §§ 1607.1-1607.18.
Vazirabadi’s amended complaint does not assert either of
these causes of action. As a result, the district court did not
rule on either of these claims as separate causes of action.7
An issue must generally be “presented to, considered and
decided by the trial court before it can be raised on appeal.”
Tele-Commc’ns, Inc, v. Comm’r. 104 F.3d 1229, 1233 (10th
Cir. 1997) (alterations and quotation omitted). We decline
Vazirabadi’s invitation to address these claims for the first
time on appeal.
Ill
For the reasons stated above, we AFFIRM.
Entered for the Court
Carlos F. Lucero
Circuit Judge

7 The district court did address Vazirabadi’s argument, made in
connection with his ADEA and conspiracy causes of action, that
SHL—which is not a party in this case—violated the law by asking
whether Vazirabadi was over the age of forty. The district court
pointed out that the issue of whether SHL properly asked about
Vazirabadi’s age is irrelevant to the claims in this case given that
“there is no evidence that the information about [] Vazirabadi’s age
was known to or used by [Denver Health] in its hiring decision.”
We agree.

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge R. Brooke Jackson
Civil Action No 17-cv-01737-RBJ, Filed 10/11/2018
ALIREZA VAZIRABADI
Plaintiff,
v.
DENVER HEALTH AND HOSPITAL AUTHORITY
(“DHHA”), as Employer, JEREMY LEE (“LEE”), in his
Individual Capacity, ELIZABETH FINGADO (“FINGADO”),
in her Individual Capacity, THEODORE POKRYWKA
(“POKRYWKA”), in his Individual Capacity, JOHN AND
JANE DOES 1 THROUGH 10, and DOES ENTITIES 1
THROUGH 10, whose true names are unknown,
Defendants.
ORDER
This order addresses plaintiffs request for leave to amend his
first amended complaint [ECF No. 102] and defendants’
motion for summary judgment [ECF No. 106]. For the
reasons given below, the request for leave is DENIED, and
the motion for summary judgment is GRANTED.
I. BACKGROUND
Plaintiff Alireza Vazirabadi is a 54-year-old IranianAmerican citizen residing in Aurora, Colorado. ECF No. 44
at 1. In early July 2016 he applied through the online
platform Peoplefluent to work at Denver Health and
Hospital Authority (“DHHA”) as a Lean Facilitator.
Responding to a question on his application regarding
foreign language skills, Mr. Vazirabadi indicated that he is
fluent in Farsi. Upon completing his Peoplefluent
application, he next completed an online assessment test

App. 17
administered by a separate company, SHL.1 Among other
things the pre-employment assessment included a question
whether the individual was over the age of 40, to be
completed on a voluntary basis. Mr. Vazirabadi answered
the question “yes.” Two days later he applied for another
position at DHHA as a Lean Coordinator. Within 24 hours,
Ms. Lindsay Beaudry, Lean Facilitator, notified Mr.
Vazirabadi that he would have a 30-minute phone
interview on July 15, 2016. Mr. Vazirabadi completed that
phone interview with a panel of five DHHA employees.
On August 3, 2016 Defendant Jeremy Lee, one of his
five interviewers, notified Mr. Vazirabadi that DHHA
would not offer him a position. DHHA instead hired Ms.
Phillips, a 34-year-old Caucasian female, for the Lean
Facilitator position, and Mr. Leone, a 28-year-old Hispanic
male, for the Lean Coordinator position. According to
defendants, both Ms. Phillips and Mr. Leone were more
qualified for the respective positions.
Nonetheless,
Mr. Vazirabadi claims DHHA
discriminated against him based on his age and national
origin. He filed a charge of discrimination with the Equal
Employment Opportunity Commission (“EEOC”) on
September 15, 2016. In response to the allegations, DHHA
stated that it did not ask Mr. Vazirabadi if he was over 40
on his application. DHHA further stated that although it
did ask for foreign language ability, it did not require an
answer. DHHA explained that the purpose of the question
is because numerous positions—but not the two he applied
for—had a bilingual preference. Mr. Vazirabadi received a
right to sue letter from the EEOC on May 6, 2017.

1 SHL, which was formerly known as CEB/Gartner, advertises that it
is one of the world’s leading pre-employment assessment providers.
ECF No. 106-9 at 1, Ex. J at Tf2.

App. 18
Procedural History
I granted plaintiff s first motion for leave to amend his
complaint in October 2017, which he did on November 6,
2017. ECF Nos. 37, 44. He subsequently sought to amend
his first amended complaint (“FAC”) on June 7, 2018. ECF
No. 90. I denied that motion after concluding that Mr.
Vazirabadi failed to provide any explanation as to how the
amended pleading would further his prima facie case of
discrimination. ECF No. 96. After my ruling, defendants
filed a motion to dismiss all five claims asserted in the
FAC. ECF No. 51. I dismissed claims two and three but
allowed his other three claims to go forward. ECF No. 101.
His three remaining claims (numbered as they are in the
FAC) include (1) conspiracy in violation of 42 U.S.C. §
1985(3) to deprive Mr. Vazirabadi of his right to equal
protection under the Fourteenth Amend-ment (age
discrimination); (4) age discrimination in violation of the
Age Discrimination in Employment Act of 1967, 29 U.S.C.
§§ 621 et seq.; and (5) national origin discrimination in
violation of Title VII of the Civil Rights Act of 1964,
42 U.S.C. § 2000e.
II. STANDARDS OF REVIEW
Federal Rule of Civil Procedure 15 allows a party to
“amend its pleading once as a matter of course” if it does so
within “21 days after serving it,” or within “21 days after
service of a responsive pleading or 21 days after service of
a motion under Rule 12(b), (e), or (f), whichever is earlier.”
Fed. R. Civ. P. 15(a)(1). But in all other cases, such as once
an answer has been filed, a complaint may be amended “only
with the opposing party's written consent or the court's
leave.” Fed. R. Civ. P. 15(a)(2). Still, a district court “should
freely give leave when justice so requires” unless a showing
of “undue delay, undue prejudice to the opposing party, bad
faith or dilatory motive, failure to cure deficiencies by
amendments
previously
allowed,
or futility of

App. 19
amendment.” Id.; Kneen v. Zavaras, 885 F. Supp. 2d 1055,
1060 (D. Colo. 2012) (quoting Duncan v. Manager, Dep't of
Safety, City and Cty. of Denver, 397 F.3d 1300, 1315 (10th
Cir. 2005) (citations omitted)).
Concerning the summary judgment motion, the Court
may grant summary judgment if “there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The moving party has the burden to show that there is
an absence of evidence to support the nonmoving party’s
case. Celotex Corp. v. Catrett, All U.S. 317, 325 (1986). The
nonmoving party must “designate specific facts showing
that there is a genuine issue for trial.” Id. at 324. A fact is
material “if under the substantive law it is essential to the
proper disposition of the claim.” Adler v. Wal-Mart Stores,
Inc., 144 F.3d 664, 670 (10th Cir. 1998) (citing Anderson v.
Liberty Lobby, Inc., All U.S. 242, 248 (1986)). A material
fact is genuine if “the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson, All U.S. at 248. The Court will examine the
factual record and make reasonable inferences therefrom
in the light most favorable to the nonmoving party.
Concrete Works of Colorado, Inc. v. City & Cty. Of Denver,
36 F.3d 1513, 1517 (10th Cir. 1994).
Before turning to the merits, I note that Mr.
Vazirabadi proceeds pro se. As a pro se litigant, I must
construe his pleadings liberally. Hall v. Bellmon, 935 F.2d
1106, 1110 (10th Cir. 1991). Although I will hold him to a
less stringent standard, I cannot assume the role of his
advocate. Id.
III. FACTS
The following is a recitation of the evidence on which
the parties rely in arguing whether this is or is not a
genuine dispute as to a material fact that requires a trial.

App. 20
A. Defendants’ Evidence.
1. Age Discrimination.
Defendants submit evidence showing that in the
summer of 2016, DHHA’s Lean Department had two
openings. ECF No. 106 at 2-3.2 To fill the vacancies, DHHA
allocated funds for the positions and posted the job
openings with Peoplefluent. Id. at 3. Peoplefluent is a
third-party vendor that DHHA uses for all nonphysician
positions. Id. Peoplefluent offers web-based application
software that DHHA can tailor to individual job titles or
departments. Id. at 5. However, because DHHA has
roughly 1,500 different job titles, DHHA does not
individually tailor the applications. Id. Mr. Vazirabadi and
all other DHHA applicants completed the People-fluent
online application. Id. at 3-4. The application did not
inquire about his age other than to inquire whether he was
at least 18 years old. Id. at 3—4.
After completing his Peoplefluent application, Mr.
Vazirabadi received an email link to complete the SHL
assessment, sometimes referred to as a “test.” Id. at 6. SHL
assessments are intended to help employers predict an
applicant’s work behavior, such as professional potential,
deductive reasoning, and confidence, among others. Id.
Applicants complete the assessment through SHL’s webbased platform. Id. All assessments are the same for every
applicant. Id. at 7.
As part of the assessment process, SHL collects
applicants’ demographic information to comply with EEOC
guidelines. Id. This information helps ensure the
2 The pages in defendants’ motion that I cite contain citations to
affidavits or other evidence submitted as exhibits (ECF Nos. 106-1
through 106-21) in support of the statements in the motion. I will
separately cite the exhibits in this order where I consider it to be
helpful or necessary.

App. 21
assessment is not adversely affecting protected groups. Id.
However, applicants are not required to disclose this
information, and their answers are never included in the
assessment report that employers access. Id. Prior to
answering the demographic questionnaire, applicants are
told, “If you prefer not to answer these questions, please
select Prefer not to answer option.” Id. and Ex. J (Scheu
Affidavit), ECF No. 106-9, at 15. As relevant to this case,
the demographic question was whether the applicant was
over the age of 40. Mr. Vazirabadi elected to answer the
question and said “yes.”
Once SHL completes its assessment, DHHA hiring
managers can login to SHL’s platform to retrieve the
assessment report. Id. at 8. The report summarizes the
findings but does not allow hiring managers to access
individual questions or access specific demographic
information. Id. SHL does not and will not share individual
demographic information with employers to include
DHHA. Id. Instead, the only way to collect demographic
data is in the aggregate. Id. Because DHHA receives about
5,000 applications a month, it is practically impossible to
identify an individual applicant through aggregate
information. Id. at 8-9. Mr. Genkinger, as DHHA’s
Director of Recruitment, is the only person authorized to
obtain aggregate demographic information from SHL. Id. at
8. However, he states in affidavit form that he did not ask
for or obtain the aggregate demog-raphic information for
July or August 2016, the timeframe when Mr. Vazirabadi
applied. Id., Ex. A, ECF No. 106-21, at ^[41. SHL confirms
that Mr. Genkinger did not log into SHL’s database to
obtain this information. ECF No. 106-9 at ^26.
Peoplefluent’s web-based platform is not integrated
with SHL’s web-based platform. ECF No. 106 at 5. The only
way Peoplefluent and SHL communicate is when SHL
sends an email to Peoplefluent with an applicant’s test

App. 22
score. Id. at 6; Ex. A, ECF No. 106-21, at Tf27. Other than
that, the two online platforms do not talk to each other.
2. National Origin Discrimination.
Peoplefluent’s online application asks applicants to
“list all fluent languages.” ECF No. 106 at 4. This is a
voluntary question. Id.; Ex. A, ECF No. 106-21, at 19.
Defendants allege that the question serves a legitimate
business purpose because numerous DHHA positions
require employees to interact with customers in Spanish,
Russian, and Farsi due to a high concentration of Russianspeaking, African, and Middle Eastern patients. ECF No.
106 at 4; ECF No. 106-21 at Tf21. Defendants further allege
that the voluntary language fluency question was not
intended to identify an applicant’s national origin. ECF
No. 106 at 4; ECF No. 106-21 at ^22. Even assuming the
question was for an improper purpose, Mr. Lee, the
individual responsible for interviewing and hiring both the
new Lean Coordinator and Lean Facilitator, states in his
affidavit that he did not review this section because neither
position required foreign language skills. ECF No. 106 at
4; Ex. B, ECF No. 106-1, at f 16. However, for the present
purposes, I will assume that his indication of Farsi fluency
and his last name could have been an indication that he
had an Iranian or Middle Eastern background.
3. Applicants’ Comparative Qualifications.
Defendants go on to describe the selected candidates’
qualifications and experience. DHHA hired Ms. Phillips for
the Lean Facilitator position, and Mr. Leone for the Lean
Coordinator position. Ms. Phillips holds a master’s degree

App. 23
in business administration and has extensive project
management experience. ECF No. 106 at 13. Likewise, Mr.
Leone holds a master’s degree in public health and holds
certificates in Hospital Lean Leadership and Hospital Lean
Management Systems. Id. Both Phillips and Leone had
existing work relationships with members of the hiring
panel through internships and previous positions at DHHA.
Id. at 13-14. Defendants also state that Phillips and Leone
performed better during their respective interviews. Id.
When asked to give specific examples, Phillips and Leone
provided concrete examples of leading small groups and
other project management experience. Id.
In contrast to Phillips’s and Leone’s experience and
interview performance, Mr. Vazirabadi’s experience did
not lend itself to the relevant skills required for the
positions. He had been working as an Uber driver for
several years, and he failed to provide specific examples
to substantive interview questions regarding his project
management skills. Id. at 11. DHHA states that it selected
Phillips and Leone because they were more qualified
candidates for the respective positions. Id. at 12.
4. Plaintiffs Request to Strike Defendants’ Affidavits.
Before turning to Mr. Vazirabadi’s evidence, I note
that he vigorously argues that all ten defendant affidavits
are invalid because they did not include the words “true
and correct” and “under penalties of perjury.” ECF No. 107
at 1-2. Mr. Vazirabadi cites nonbinding case law to support
his assertion, and none of these cases persuade me to strike
the ten affidavits. For example, Mr. Vazirabadi

App. 24
cites a Fifth Circuit case that stated, “merely notarizing
signature does not transform document into affidavit that
may be used for summary judgment purposes.” NisshoIwai Am. Corp. v. Kline, 845 F.2d 1300, 1306-07 (5th Cir.
1988) (citing Flowers v. Abex Corp., 580 F. Supp. 1230,1233
n.2 (N.D. Ill. 1984)). However, the affidavits at issue in Kline
and Flowers involved “unsworn” affidavits. Further, the
court in Flowers referred to the notarized document as a
“letter.” Flowers, 80 F. Supp. at 1233 n.2.
Defendants’ affidavits are worded, “[name], being of
lawful age and first duly sworn upon oath, depose and state
that I have personal knowledge and information
concerning the following.” E.g., ECF No. 106-1 (Affidavit of
Jeremy Lee (emphasis added)). Each affidavit is notarized by
a notary public. Id. I infer that the affiants understood that
they may be subject to the penalty of perjury or other
sanction for making an intentionally false statement in
an affidavit submitted to a federal court, and that defense
counsel, as an officer of the court, would not submit the
affidavits to this Court if she did not hold that view of the
affidavits. Accordingly, I decline to grant Mr. Vazirabadi’s
request to strike the affidavits.

App. 25
B. Plaintiffs Evidence.
1. Age Discrimination.
Mr. Vazirabadi’s sole piece of evidence to support his
age discrimination claim is his claim that hidden metadata
in his SHL assessment was included in his Peoplefluent
application.3 ECF No. 107 at 8. Although plaintiff completed
the Peoplefluent application before he completed the SHL
assessment test where he answered the over-40 question, he
states that this is possible because “Peoplefluent integrated
with CEB assessment test result sharing information .. ..”
ECF No. 44 at 17. Put another way, Mr. Vazirabadi states
that “Plaintiffs Yes response [to the age question] became
party of Defendants’ integrated Peoplefluent hiring
software application that operates under full control of
Defendants’ employee. . . .” Id. at 22. He then argues that
Defendants removed the metadata and forged the
documents for the lawsuit. The rest of his arguments to
3 Page 1 of Exhibit 9 to Mr. Vazirabadi’s response brief, ECF No. 107 at
31, depicts the purported hidden metadata that Mr. Vazirabadi
references. I include a smaller copy of this document here. Although a
little difficult to read, he has enlarged and circled in two places what
appears to be an apostrophe and then the number 40 (‘40). I will discuss
this piece of evidence in more detail later in this order
; :
NHmibi

f

J«L.

I/P'4
& :s=ss, yi

2

< vL.
S

i

•*>»**■

I

Si

r3

1

..—r.ssss’ia
tm

»*»»*M»**fc

i

*25

-swSSto*

l

i

DM

jsssgSSgr:
,-Zrtt ScoreW'.
*»•—-E

41—
\

t~~

MM* ■#«***■«

•r

l

?

✓ ?

A % Vnfctb*4V ABttt* Altftt* (tOMS) »l«ff FtOtttar
(44SSO

Jrne AHACHMtlk. _
(t of 3 '40 VazirabjJ
Vn Facilitator /

--- «»»"

i

.F*“-0
■

*«w»

Q=S=3

Brief Exhibit 8

1

EHm

Lean Facilitator
Page 98 of
EEOC Investiation

*•
]

App. 26
support his age discrimination claim lack any additional
evidence (which I address in the analysis section of this
order).
2. National Origin Discrimination.
Mr. Vazirabadi’s only evidence to support his national
origin discrimination claim is that he indicated his fluency
in Farsi on his Peoplefluent application. Armed with that
information, defendants failed to hire him because of his
national origin.
3. Applicants’ Comparative Qualifications.
Mr. Vazirabadi apparently doesn’t dispute that Ms.
Phillips is more qualified for the Lean Facilitator position.
However, he disputes Mr. Leone’s qualifications. Mr.
Vazirabadi points out that Mr. Leone scored the same low
score on his SHL assessment as Mr. Vazirabadi yet DHHA
offered Mr. Leone a position. ECF No. 107 at 15. They both
scored in the 25th percentile overall resulting in a “not
recommended” hiring status. See ECF No. 102-1 at 42, Ex.
10 at 1. Other than this point, he does not address Mr.
Leone’s master’s degree, hospital certifications, or prior
internship experience.
IV. ANALYSIS
A. Plaintiffs Motion for Amend his Amended Complaint.
The facts of this case fall within the realm of Rule
15(a)(2). To decide whether justice requires me to grant Mr.
Vazirabadi’s request, I will focus on the prejudice to
defendants if I grant leave. See Minter v. Prime Equip. Co.,
451 F.3d 1196, 1208 (10th Cir. 2006) (quoting 6 Wright,
Miller & Kane, Federal Practice and Procedure § 1487 (2d
ed. 1990) (“Perhaps the most important factor listed by the
Court and the most frequent reason for denying leave to
amend is that the opposing party will be prejudiced if the
movant is permitted to alter his pleading.”)). “Courts
typically find prejudice only when the amendment unfairly

App. 27
affects the defendants in terms of preparing their defense
to the amendment.” Id. (citations omitted).
In this case, Mr. Vazirabadi filed his current motion
to amend on August 7, 2018. ECF No. 102. Defendants
oppose the motion. ECF No. 105. His proposed second
amended complaint, which he filed over two months after the
discovery deadline of June 1, seeks to add three new
defendants—CEB, Inc./Gartner, Inc. (now SHL), Ms.
Christine Scheu, and Mr. Peter Heiligenthal. Ms. Scheu
and Mr. Heiligenthal are both employees of SHL. Mr.
Vazirabadi also seeks to add a constitutional claim,
arguing that the three new defendants violated his Fourth
Amendment rights by performing an unreasonable search
and invading his privacy by asking, “Are you over-age-40 or
older?” in their online assessment.
I typically grant leave to amend complaints, but Mr.
Vazirabadi’s case presents unique difficulties. First, the
deadline for dispositive motions was August 29, 2018,
which is the day defendants filed their motion for summary
judgment. ECF Nos. 104, 106. Because Mr. Vazirabadi
attempts to add a Fourth Amendment claim, defendants
have not responded to that claim in their summary
judgment motion. Therefore, even if I granted summary
judgment, an active claim would remain in the case.
Second, the crux of Mr. Vazirabadi’s claims is that
DHHA—not SHL—made its hiring decisions based on
unlawful reasons. SHL was not a decision maker in the
hiring process and thus would add little to the current
lawsuit. What it would do is necessitate a continuance of
the current trial so SHL and its officers could prepare a
defense to a largely unrelated set of claims.
With those points in mind, I find that granting
the motion to amend would result in undue prejudice to
defendants. With less than a month until trial, an amended
complaint would probably result in both DHHA and the

App. 28
SHL defendants moving for leave to file a new round of
dispositive motions. But since there is no evidence that SHL
participated in the Lean Department’s hiring decision­
making process, it would not be fair to DHHA to postpone
resolution of the claims against it in this case. In addition
to prejudice to defendants, I find that granting the request
for leave would be futile. Mr. Vazirabadi has produced no
viable evidence that his age was communicated to DHHA
from SHL. Thus, based on prejudice and futility grounds,
Mr. Vazirabadi’s motion for leave to amend his FAC is
denied. If Mr. Vazirabadi wants to assert a claim that SHL
invaded his privacy rights by merely asking the (voluntary)
question, he will have to file a new lawsuit.
B. Age Discrimination — Count One (§ 1985
Conspiracy) and Count Four(ADEA).
Under the ADEA, it is unlawful for an employer “to
fail or refuse to hire . . . any individual. . . because of such
individual's age.” 29 U.S.C. § 623(a)(1). “To prevail on an
ADEA claim a plaintiff must establish that age was a
determining factor in the employer's challenged decision.
The plaintiff need not prove that age was the sole reason
for the employer's acts, but must show that age made the
difference in the employer's decision.” Greene u. Safeway
Stores, Inc., 98 F.3d 554, 557 (10th Cir. 1996) (citations
and quotations omitted).
Mr. Vazirabadi also brings a conspiracy claim against
all defendants based on the age demographic question in
his SHL assessment. To establish a claim of “conspiracy to
interfere with civil rights,” 42 U.S.C. § 1985(3), a plaintiff
must show: “(1) a conspiracy; (2) to deprive plaintiff of
equal protection or equal privileges and immunities; (3) an
act in furtherance of the conspiracy; and (4) an injury or
deprivation resulting therefrom.” Tilton v. Richardson, 6
F.3d 683, 686 (10th Cir. 1993). To prove the conspiracy,
plaintiff must show that “two or more persons are acting in

App. 29
concert.” Abercrombie v. City of Catoosa, Okl., 896 F.2d
1228, 1230 (10th Cir. 1990).
While I denied defendants’ motion to dismiss these
counts, based upon construing the alleged facts in Mr.
Vazirabadi’s favor, I now find that he has failed to put
forward any admissible or even arguably credible evidence
that creates a triable issue of fact as to whether DHHA
knew Mr. Vazirabadi’s age, much less acted on it. I find
that for several reasons that his claim that hidden metadata
from his SHL assessment existed and was included in his
Peoplefluent application has no basis in fact:
• First, Mr. Vazirabadi has no evidence that the ‘40
next to his name represents a code for over-40
applicants or that the number has any connection to
age. The Court cannot speculate on what that number
means, but neither can Mr. Vazirabadi create a
genuine dispute of facts by speculation.
• Second, there is no evidence that defendants ever
read or used this hidden number to make their
hiring decision. Each defendant’s affidavit states that
they did not. See affidavits of Mr. Pokrywka, Ms.
Fingado, Mr. Less, and Mr. Genkinger. ECF No. 10621, Ex. A at 17, ECF No. 106-1, Ex. B at 117, ECF No.
106-2, Ex. C at H17-19, ECF No. 106-3, Ex. D at 15.
• Third, the evidence is that Peoplefluent’s web-based
platform is not integrated with SHL’s. Mr. Vazirabadi
has produced no evidence to the contrary. Therefore,
it is implausible, perhaps impossible, that embedded
hidden metadata from one platform would transfer
over to the other.
• Fourth, after Mr. Vazirabadi raised the hidden
metadata issue in his complaint, DHHA asked
Peoplefluent whether it would be possible to replicate
the alleged hidden metadata (the ’40 document) that

App. 30
Mr. Vazirabadi claims existed. Id., Ex. A at 1f29.
Peoplefluent employees were unable to replicate it.
Id. With those four points in mind, I find that Mr.
Vazirabadi’s hidden metadata evidence does not
constitute evidence that creates a genuine dispute
for the ADEA or conspiracy claim.
I will also briefly address his other age-related
arguments. First, Mr. Vazirabadi points out that Mr. Leone
scored the same score as he did on the SHL assessment yet
received an offer. But this doesn’t prove DHHA
discriminated against Mr. Vazirabadi based on his age.
DHHA has put forward several reasons for hiring Mr.
Leone instead of Mr. Vazirabadi—namely that Mr. Leone
holds an advanced degree in public health, he holds Lean
certificates, he performed better during his interview, and
he had an existing relationship with the hospital through an
internship. ECF No. 106 at 13-14. These are legitimate,
nondiscriminatory reasons for selecting one candidate over
another.
Next, Mr. Vazirabadi asserts that SHL’s asking
applicants to answer whether they are age 40 or older is
illegal. SHL alleges that they ask this question to ensure
hiring decisions will not negatively impact a protected
group. But even if I were to assume that SHL’s question
was improper, it does not constitute evidence of
discrimination or a conspiracy to discriminate by the
DHHA defendants in this case. That is because there is no
evidence that the information about Mr. Vazirabadi’s age
was known to or used by DHHA in its hiring decision.
Third, Mr. Vazirabadi cannot show evidence of a larger
scheme to discriminate against older job applicants. He
claims that “Defendants dislike older job applicants,” but
the composition of the Lean Department strongly
suggests otherwise.4 See FAC, ECF No. 44 at 18. In July
4 The Lean Department’s 13 employees included the following:

App. 31
2016, six of the 13 Lean Department employees were over
40 including a 55-year-old hired in June of that year. ECF
No. 106 at 2, Ex. B at 1(4.
Fourth, he alleges that Mr. Lee and Ms. Fingado
“excluded 3 key employees of over age 50” from the hiring
panel to disadvantage older applicants. ECF No. 107 at 4.
Again, this statement has no basis in fact. To the contrary,
defendants state in affidavits that they asked every member
of the Lean Department to participate in the interview
process on a volunteer basis. ECF No. 106 at 10, Ex. B at
H29, Ex. C at 1f9. The fact that three over-50 employees did
not volunteer does not mean they were excluded;
something more is needed to make this a material disputed
fact.
Finally, Mr. Vazirabadi briefly makes an Equal
Protection Claim argument in his first cause of action.
Thus, I must consider whether DHHA treated Mr.
Vazirabadi differently from other similarly situated
applicants. The Equal Protection Clause prohibits a
government entity from “denying] to any person within its
jurisdiction the equal protection of the laws.” U.S. Const,
amend. XIV. “A violation of equal protection occurs when
the government treats someone differently than another

Defendant Lee (40; Caucasian; two years and eleven months);
Defendant Fingado (53; Caucasian; two years and seven months);
David Draper (61; Caucasian; two years and four months); Helena
Caya (55; Caucasian; employed one month); David Hooper (53;
Caucasian; six months); Carol Ann Kelly (50, Caucasian; one year and
eight months); Scott Pegues (45; Black; eight months); Sharif
Abdelhamid (37; Caucasian; two years and two months); Jeff Weide
(35; Hispanic; two years and three months); Brett Quiett (34;
Caucasian; four years and six months); Lindsay Beaudry (32;
Caucasian; two years); Erin Folly (27; Caucasian; one year and eleven
months); and Hanna Andress (25; Caucasian; employed for thirteen
months).
ECF No. 106 at 2, Ex. B at 1f4.

App. 32
who is similarly situated.” Jacobs, Visconsi & Jacobs, Co.
v. City of Lawrence, Kan., 927 F.2d 1111, 1118 (10th Cir.
1991). Here, Mr. Vazirabadi cannot show that defendants
treated him differently. Like the other candidates, Mr.
Vazirabadi completed the same online application and
SHL assessment followed by a phone interview where the
panelists asked him the same interview questions and
evaluated him using the same criteria as the other
candidates. ECF No. 106 at 17.
For the above reasons, I grant summary judgment in
favor of defendants on claims one and four.
C. National Origin.
If an individual has no direct proof of national origin
discrimination, the individual must satisfy the McDonnell
Douglas burden-shifting test to prevail under a Title VII
claim. See Barlow v. C.R. England, Inc., 703 F.3d 497, 505
(10th Cir. 2012). First, he must present a prima facie case
of discrimination. Id. Once he does that, the burden shifts
to the employer to prove a “legitimate, non-discriminatory
reason for the adverse employment action.” Id. (citations
omitted). If the employer satisfies the second step, then
the burden shifts back to the individual “to show that the
nondiscriminatory reason proffered by the defendant is a
pretext.” Voltz v. Coca-Cola Enters. Inc., 91 F. App'x 63,
68 (10th Cir. 2004) (unpublished). ‘“Pretext can be shown
by such weaknesses, implausibilities, inconsistencies,
incoherencies, or contradictions in the employer's proffered
legitimate reasons for its action that a reasonable factfinder
could rationally find them unworthy of credence and hence
infer that the employer did not act for the asserted non­
discriminatory reasons.’” Id. (quoting Morgan v. Hilti, Inc.,
108 F.3d 1319, 1323 (10th Cir. 1997)). ‘“Mere conjecture
that [the] employer's explanation is a pretext for intentional
discrimination is an insufficient basis for denial of

App. 33
summary judgment.’” Id. at 68—69 (quoting Branson v.
Price, 853 F.2d 768, 772 *10th Cir. 1988)).
Here, Mr. Vazirabadi has no direct proof of national
origin discrimination. Therefore, to prevail on his Title VII
claim, he must satisfy the burden-shifting test. For this
purpose only I will assume that Mr. Vazirabadi has
satisfied the first step in the McDonnel Douglas test
because defendants focus their efforts solely on the second
and third steps. In their motion, defendants provided and
documented a legitimate, nondiscriminatory reason for not
hiring Mr. Vazirabadi: the other candidates were more
qualified and performed better during the interview process.
With the ball back in his court, Mr. Vazirabadi has failed
to establish that DHHA’s reasons were a pretext. First, as
I have said, he cannot establish that defendants even knew
his national origin prior to filing this lawsuit. Mr.
Vazirabadi assumes that his national origin was known
because he voluntarily disclosed that he is fluent in Farsi.
But the affidavits emphatically state that defendants were
unaware of his national origin. This makes sense because
“[ljanguage, by itself, does not identify members of a suspect
class.” Soberal-Perez u. Heckler, 717 F.2d 36, 41 (2d Cir.
1983). Second, even assuming any members of the hiring
committee knew he is fluent in Farsi, or interpreted his
name as indicative of Iranian decent, there is no evidence
that those facts had any impact on the hiring decision.
Mere evidence of foreign language proficiency or a foreign
language background, without anything more, does not
create a genuine dispute as to whether there was
discrimination based on race or national origin.
I find that Mr. Vazirabadi’s allegation is nothing more
than conjecture. He presents no evidence that defendants
knew or used his national origin to make their hiring
decisions. Accordingly, I grant defendants’ motion for
summary judgment in their favor on the final claim:

App. 34
national origin discrimination in violation of Title VII
of the Civil Rights Act of 1964.
D. Qualified Immunity.
In the event I denied their motion for summary
judgment, defendants ask the Court to find that the
individual defendants are entitled to qualified immunity.
However, because I am granting the motion, I decline to
rule on this issue. I also decline to rule because defendants
have not fully briefed the issue. As I stated in my order on
motion to dismiss, defendants treated this complex doctrine
as an afterthought in their motion to dismiss. See ECF No.
101 at 9. Defendants again treat qualified immunity as an
afterthought in their summary judgment motion—the
argument consists of two sentences. As I previously ruled,
this is not good enough.
E. Fees and Costs.
Defendants ask for reasonable attorneys’ fees and
costs pursuant to 42 U.S.C. § 1988. ECF No. 106 at 20.
Section 1988(b) allows the Court, in its discretion, to award
the prevailing party reasonable attorneys’ fees and cost.
However, I decline to do so at this time because the request
was not briefed, and defendants have not provided any
reason why I should require Mr. Vazirabadi to pay
defendants fees and costs beyond taxable costs awarded to
the prevailing party under Rule 54.
ORDER
(1) Plaintiffs motion for leave to amend his first
amended complaint, ECF No. 102, is DENIED.
(2) Defendants’ motion for summary judgment, ECF
No. 106, is GRANTED. This civil action is dismissed
with prejudice, and a final judgment will be entered
accordingly.

App. 35
(3) Defendants’ motion to vacate the October 12, 2018
Trial Preparation Conference and to continue the
November 5, 2018 trial, ECF No. 109, is GRANTED
with respect to the Trial Preparation Conference
and otherwise is MOOT. The trial is vacated.
(4) As the prevailing parties, defendants are awarded
costs to be taxed by the Clerk of Court pursuant to
Fed. R. Civ. P. 54 (d)(1) and D.C.COLO.LCivR 54.1.

DATED this 11th day of October, 2018.
BY THE COURT:
s/
R. Brooke Jackson
United States District Judge

App. 36
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Appellate Case: No. 18-1411
(D.C. No. 1:17-CV-01737-RBJ)(D. Colo.)
FILED
United States Court of Appeals
ALIREZA VAZIRABADI,
Tenth Circuit
Plaintiff - Appellant,
September 4, 2019
Elisabeth A. Shumaker
v.
Clerk of Court
DENVER HEALTH AND HOSPITAL
AUTHORITY, as Employer, et al.,
Defendants - Appellees.
SHL US INC.,
Interested Party - Appellee.
ORDER
Before LUCERO, MATHESON, and MORITZ, Circuit
Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to
all of the judges of the court who are in regular active
service. As no member of the panel and no judge in regular
active service on the court requested that the court be
polled, that petition is also denied.
Entered for the Court
s/

ELISABETH A. SHUMAKER, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

